No. ________________
_______________________________________________________________________

In the Supreme Court of the United States
_____________________________
HOPE ANGELIC WHITE, individually and as personal representative of the
estate of Myron Pollard,
PETITIONERS
v.
UNITED STATES OF AMERICA and BERNARD HANSEN,
RESPONDENTS
_____________________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
______________________________
PETITION FOR A WRIT OF CERTIORARI
______________________________

Howard A. Shalowitz
Attorney At Law
P.O. Box 410404
St. Louis, MO 63141
howard@shalowitz.org
(314) 277-9977
(314) 392-9912 (fax)
Counsel for the Petitioners

QUESTION PRESENTED FOR REVIEW
The Federal Tort Claims Act (FTCA), 28 U.S.C. 1346(b), 2671 et seq.,
waives the sovereign immunity of the United States and creates a cause of
action for damages for certain torts committed by federal employees “under
circumstances where the United States, if a private person, would be liable to
the claimant in accordance with the law of the place where the act or
omission occurred.” 28 U.S.C. 1346(b)(1). The FTCA also imposes a judgment
bar, which provides that “[t]he judgment in an action under section 1346(b) of
this title shall constitute a complete bar to any action by the claimant, by
reason of the same subject matter, against the employee of the government
whose act or omission gave rise to the claim.” 28 U.S.C. 2676. Congress
enacted the judgment bar of the FTCA to prevent a plaintiff who first fails to
prove a tort claim against the United States from then having a second
chance, in a separate lawsuit, at that same claim by suing the government’s
official individually.
The question presented is whether, in the same lawsuit, a partial
judgment for or against a claimant in her capacity as personal representative
for an estate claiming one set of damages under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971) is vacated
and barred by a subsequent judgment for or against a claimant in her
individual capacity claiming another set of damages under the Federal Tort
Claims Act (FTCA), 28 U.S.C. 2671 et seq., and 28 U.S.C. Section 1346(b).
(i)

PARTIES TO THE PROCEEDING
Petitioner Hope Angelic White was the appellant in the court of
appeals. She was serving in two separate and distinct capacities. Petitioner
was serving as personal representative of the Estate of her deceased son,
Myron Pollard, in the Bivens claim with one set of damages based on
Constitutional violations, and in her individual capacity as Myron Pollard’s
mother in the FTCA claim with another separate and distinct set of damages
based on Missouri tort law. Respondents are the United States of America,
and the Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF) special
agent Bernard Hansen.

RELATED PROCEEDINGS
1. Hope Angelic White, individually and as personal representative of the
estate of Myron Pollard v. The United States of America and Bernard
Hansen, No. 4:15CV1252SNLJ, United States District Court for the
Eastern District of Missouri. Partial Judgment in a Civil Case on the
Bivens claim only against Hope White in her capacity as personal
representative of the estate of Myron Pollard entered August 21, 2018.

(ii)

RELATED PROCEEDINGS (cont.)
2. Hope Angelic White, individually and as personal representative of the
estate of Myron Pollard v. The United States of America and
Bernard Hansen, No. 4:15CV1252SNLJ; 2019WL1426292, United
States District Court for the Eastern District of Missouri. Judgment
on the FTCA claim only against Hope White in her individual capacity
entered March 29, 2019.

3. Hope Angelic White, individually and as personal representative of the
estate of Myron Pollard v. United States of America and Bernard
Hansen, 959 F.3d 328 (8th Cir. May 13, 2020), United States Court of
Appeals for the Eighth Circuit, docket #19-1878. Judgment entered
May 13, 2020, petition for reh’g denied, July 28, 2020.

(iii)

TABLE OF CONTENTS
I.

Question Presented………………………………………………….

Page
i

II.

Parties to the Proceeding…………………………………………….

ii

III.

Related Proceedings…………………………………………………..

ii

IV.

Table of Contents……………………………………………………...

iv

V.

Table of Authorities…………………………………………………...

v

VI.

Petition for a Writ of Certiorari……………………………………….

1

VII.

Opinions below………………………………………………………...

1

VIII. Jurisdiction…………………………………………………………….

2

IX.

Statutory provisions involved……………………………………….

3

X.

Statement of the Case………………………………………………..

3

XI.

Reasons for granting the petition…………………………………..
A.
The decision below is wrong…………………………………
1.
The decision conflicts with the FTCA’s text and this
Court’s decisions………………............................................
2.
The decision conflicts with decisions of
other federal courts of appeals……...................................
3.
The decision conflicts with decisions within its
own circuit……………………………………………………..
B.
The questions presented warrant this Court’s review.....

15
15

XII.

Conclusion .....................................................................................

32

XI.

Appendix A — Court of appeals opinion and judgment
(May 13, 2020) …………………..……............
Appendix B — District court partial judgment (Bivens)
(Aug. 21, 2018) .............................................
Appendix C — District court FTCA memorandum and order
(March 29, 2019)………………………………
Appendix D — District court judgment (FTCA)
(March 29, 2019)………………………………
Appendix E — Court of appeals order denying rehearing
(July 28, 2020)............................................
Appendix F — Statutory provisions.............................................
(iv)

15
23
31
32

1a
11a
12a
43a
44a
45a

TABLE OF AUTHORITIES
Cases:

Page

Arcoren v. Farmers Home Admin., 770 F.2d 137
(8th Cir. 1985)

…………….

3, 31

Arevalo v. Woods, 811 F.2d 487 (9th Cir. 1987)

…………….

29

Bivens v. Six Unknown Named Agents of Fed. Bureau of
Narcotics, 403 U.S. 388 (1971)
...................

passim

Brownback v. King, 140 S. Ct 2563 (2020)

………..……

2, 3, 21, 22

Carlson v. Green, 446 U.S. 14 (1980)

……..3, 16, 18, 22, 29, 31

Estate of Trentadue ex rel. Aguilar v. United States,
397 F. 3d 840 (10th Cir. 2005)
………..…

29, 30

Fazaga v. FBI, 916 F.3d 1202 (9th Cir. 2019), amended
in 965 F.3d 1015 (9th Cir. 2020)
…………

3, 24, 25, 30

Gasho v. United States, 39 F.3d 1420 (9th Cir. 1994),
cert. denied, 515 U.S. 1144 (1995)
……........

24, 25, 26

Harris v. United States, 422 F.3d 322 (6th Cir. 2005) .................

28, 30

Hoosier Bancorp of Ind., Inc. v. Rasmussen,
90 F.3d 180 (7th Cir. 1996)

…………..

24

Ivy v. Hawk, 878 S.W. 2d 442 (Mo. banc 1994)

………….

5

Kreines v. United States, 959 F.2d 834 (9th Cir. 1992) ……….…. 3, 24, 25, 30
Loge v. U.S., 662 F.2d 1268 (8th Cir. 1981)

……….….

3, 32

Manning v. United States, 546 F.3d 430
(7th Cir. 2008), cert. denied, 558 U.S. 1011 (2009).............

28, 29, 30

Rodriguez v. Handy, 873 F.2d 814 (5th Cir. 1989)

………….

27, 30

Semtek Int'l Inc. v. Lockheed Martin Corp, 531 U.S. 497 (2001)..

27

(v)

TABLE OF AUTHORITIES (cont.)
Serra v. Pichardo, 786 F.2d 237 (6th Cir.), cert. denied,
___ U.S. ___, 107 S.Ct. 103, 93 L.Ed.2d 53 (1986) ………..

29

Simmons v. Himmelreich, 136 S.Ct. 1843 (2016) ……. 3, 16, 17, 20, 21, 22, 31
Ting v. United States, 927 F.2d 1504 (9th Cir. 1991)

………..

24

United States v. Gilman, 347 U.S. 507 (1954)

…………

20

Unus v. Kane, 565 F.3d 103 (4th Cir. 2009),
cert. denied, 558 U.S. 1147 (2010)

..................

28, 30

Vennes v. An Unknown Number of Unidentified Agents
of U.S., 26 F.3d 1448 (8th Cir. 1994)
……………

4

Wagner v. Jones, 2:13-cv-00771-CG/WPL
(Dist Ct. NM, 2014)

……………

27

White v. United States and Hansen, 959 F.3d 328
(8th Cir. May 13, 2020), petition for reh’g denied,
July 28, 2020
..…………..

iii, 1

Will v. Hallock, 546 U.S. 345 (2006)

…………… 3, 16, 19, 31

Statutes and Rule:
Federal Tort Claims Act

…………

passim

28 U.S.C. 1254(1)

………….

2

28 U.S.C. 1346

...............

3

28 U.S.C. 1346(b)

...............

i, 3

28 U.S.C. 1346(b)(1)

...............

i

28 U.S.C. 2671 et seq.

...............

i

28 U.S.C. 2674

...............

3

28 U.S.C. 2676

...............

passim

...............

29

28 U.S.C. 2680(h)

(vi)

TABLE OF AUTHORITIES (cont.)
United States Supreme Court Rule 10(a)

……..….

2

United States Supreme Court Rule 10(c)

….….….

2

United States Supreme Court Rule 13.1

.…….….

2

Fed.R.Civ.P., Rule 59(e)

...............

7, 13

Other Authorities:
James E. Pfander & Neil Aggarwal, Bivens, the Judgment
Bar, and the Perils of Dynamic Textualism,
8 U. St. Thomas L.J. 417 (2011).
……….

17

Hearings Before the House Committee on the Judiciary on
H.R. 5373 and H.R. 6463, 77th Cong., 2d Sess. 9 (1942) …

26

(vii)

No. _______________

In the Supreme Court of the United States
_____________________________

HOPE ANGELIC WHITE, individually and as personal representative of the
estate of Myron Pollard,
PETITIONERS
v.
UNITED STATES OF AMERICA and BERNARD HANSEN,
RESPONDENTS
_____________________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
______________________________
PETITION FOR A WRIT OF CERTIORARI
_______________________________
Attorney Howard A. Shalowitz, on behalf of Hope Angelic White, in her
capacity as personal representative of the estate of Myron Pollard and in her
individual capacity, respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Eighth Circuit in this
case.
OPINIONS BELOW
The opinion of the court of appeals (App. A, infra, 1a-9a) is
reported at 959 F.3d 328 (8th Cir. May 13, 2020), rehearing denied, July 28,
2020 (App. E, infra, 44a). The memorandum and order of the district court on
-1-

the FTCA claim (App. C, infra, 12a – 42a) is not published in the Federal
Supplement but is available at United States District Court (E.D. Mo.) No.
4:15CV1252SNLJ and at 2019WL1426292. The partial judgment on the
Bivens claim (App. B, infra, 11a) and the judgment on the FTCA claim (App.
D, infra, 43a) are not published in the Federal Supplement but are available
at United States District Court (E.D. Mo.) 4:15CV1252SNLJ.

JURISDICTION
The judgment of the court of appeals was entered on May 13, 2020
(App. A, infra, 10a). A petition for rehearing was denied on July 28, 2020
(App. E, infra, 44a). The filing of this petition for a writ of certiorari is timely
in that ninety (90) days from the denial of the petition for a rehearing falls on
Monday, October 26, 2020. United States Supreme Court Rule 13.1.
The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1) and
Supreme Court Rules 10(a) and 10(c) because a United States court of
appeals has entered a decision in conflict with the decision of another United
States court of appeals on the same important matter; a United States court
of appeals has decided an important question of federal law in a way that
conflicts with relevant decisions of this Court; and the opinion of the court
below conflicts with other decisions within its own circuit on this very issue.
A similar FTCA case is now before this Honorable Court in Brownback
v. King, 140 S. Ct 2563 (2020) (docket No. 19-546), to be argued on November
9, 2020.

-2-

STATUTORY PROVISIONS INVOLVED
Federal Tort Claims Act (FTCA) – 28 U.S.C. 1346, 28 U.S.C. 2674, 28
U.S.C. 2676, and 28 U.S.C. 2779(b). Pertinent statutory provisions are
reproduced in the appendix to this petition (App. F, infra, 45a – 46a).

STATEMENT OF THE CASE
The basis for federal jurisdiction in the district court was under 28
U.S.C. §1331 and 28 U.S.C. § 1346(b) for the FTCA claim, and 28 U.S.C.
§1332 for the Bivens claim.
In the decision below, the court of appeals held that an FTCA
judgment bars a Bivens claim in all circumstances. The opinion of the circuit
court below conflicts with at least three decisions of the United States
Supreme Court (Carlson v. Green, 446 U.S. 14, (1980), Will v. Hallock, 546
U.S. 345 (2006), and Simmons v. Himmelreich, 136 S.Ct. 1843 (2016))1; two
decisions of the United States Court of Appeals for the Ninth Circuit (Fazaga
v. FBI, 916 F.3d 1202 (9th Cir. 2019) amended in 965 F.3d 1015 (9th Cir.
2020), and Kreines v. United States, 959 F.2d 834 (9th Cir. 1992)); and three
decisions of the United States Court of Appeals for the Eighth Circuit
(Arcoren v. Farmers Home Admin., 770 F.2d 137 (8th Cir. 1985), Loge v. U.S.,

1

Brownback v. King, 140 S. Ct 2563 (2020) No. 19-546, is scheduled to be heard by this
Court on November 6, 2020; albeit with different jurisdictional facts, and a plaintiff suing in
one capacity with one cause of action under the FTCA and Bivens unlike the case at bar.
-3-

662 F.2d 1268 (8th Cir. 1981), and Vennes v. An Unknown Number of
Unidentified Agents of U.S., 26 F.3d 1448 (8th Cir. 1994)).
Consideration by this Court is therefore necessary to secure and
maintain uniformity among the various circuits and uphold this Court’s
decisions on whether a Federal Tort Claims Act (FTCA) claim may be
maintained simultaneously with a claim under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971) without
the former barring, vacating, or voiding the latter.
Procedural History: White filed a timely FTCA “Claim for Damage,
Injury, or Death” individually and as personal representative for the estate of
her son Myron Pollard. The ATF denied both of these administrative claims.
White filed a timely original Complaint followed by a First Amended
Complaint in her individual capacity for her own tort damages pursuant to
Missouri law under the FTCA against the USA (Count I), and in her capacity
as personal representative of the estate of her son Myron Pollard for his
damages pursuant to constitutional violations in a Bivens action against
Hansen (Count II). The bifurcated trial was held on July 23 through July 27,
2018. The jury returned a verdict on the Bivens claim on July 27, 2018; the
district court2 entered a “Partial Judgment in a Civil Case” on August 21,
2018 on the Bivens claim (App. B, infra, 11a); and the district court held in
favor of the government on the FTCA claim on March 29, 2019 (App. C and
App. D, infra, 12a – 43a).
2

The Honorable Stephen N. Limbaugh, Jr., United States District Judge for the Eastern District of
Missouri.
-4-

The circuit court affirmed the judgment entered in favor of the United
States and against Petitioner Hope White, individually, on the FTCA claim;
and vacated the judgment entered in favor of the Bureau of Alcohol, Tobacco,
Firearms, and Explosives (ATF) Special Agent Bernard Hansen and against
Petitioner Hope White, as personal representative of the estate of Myron
Pollard, on the Bivens claim. The circuit court remanded the Bivens claim
with instructions to dismiss that claim as barred.
The court below held that “the FTCA judgment bar precludes the
Bivens claim.” (App. A, infra, 7a). Neither the government nor Hansen plead
this alleged bar as an affirmative defense or raised the issue in the district
court. Although the judgments for the FTCA and the Bivens claims were
against Petitioner, the court of appeal’s opinion only addressed the issues
related to the FTCA claim and ignored all of the issues relating to the Bivens
claim.
In doing so, the court of appeals avoided deciding all of the issues
raised under the Bivens claim: (1) the spoliation of evidence matter before the
jury (not being able to even argue an adverse inference); (2) the district
court’s committing reversible error when it did not allow White’s counsel to
ask the “insurance question” in voir dire against the established law in Ivy v.
Hawk, 878 S.W. 2d 442 (Mo. banc 1994); (3) whether the manifest weight of
the evidence was against Hansen and contrary to the verdict; and (4) the
district court’s error in allowing the jury to hear irrelevant and highly
-5-

prejudicial testimony and statements from counsel.
If the court below decided Section IV of the Opinion (App. A, infra, 7a –
9a) in favor of White, then it would have had to decide the remaining jurytried issues on the Bivens claim. Had this occurred, any of the remaining
issues regarding the Bivens claim would afford White a new trial consistent
with that opinion.
The court below decided that in any circumstance, maintaining an
FTCA claim automatically bars a Bivens claim. The court ignored and
incorrectly applied three Supreme Court cases and cases in other United
States circuit courts of appeals to the case at bar.
The circuit court opinion (App. A, infra, 1a – 9a) addresses three
issues: (1) the spoliation claim only as it relates to the FTCA claim tried by
the district court, (2) the FTCA claim, and (3) the FTCA’s bar to the Bivens
claim.
Facts of the Case: ATF set up a “fictitious home invasion” that lured
black teenagers and young men to a vacant parking lot where the entire
operation was captured on four stationary digital video recordings. Myron
Pollard, a front seat passenger in a vehicle driven to the lot, was not a
suspect in this operation. Out of the ten ATF agents who were carrying
lethal weapons during the operation, ATF special agent Bernard Hansen was
the only one to discharge his weapon, fatally wounding Pollard. ATF set up
four separate video recordings of the incident but none captured the fatal
-6-

shot -- one was missing 4-1/2 seconds of crucial video, one “malfunctioned”
and captured nothing, one had “frozen” video frames at the time a gun was
discharged, and one was missing the audio when Hansen shot his weapon.
The copies made from the original servers were not complete copies of the
operation that was recorded. ATF then erased the original servers onto
which these recordings were made. This evidence was crucial to White’s case
and the spoliation prejudiced her thereby. The district court did not even
allow the Petitioner to argue an adverse inference from the erased servers
and incomplete copies that were recorded. At a minimum, the district court
should have allowed counsel to argue an adverse inference from the erased
servers and the incomplete copies of the videos; and, at most, to sanction
Respondents Hansen and the USA by one of the methods allowed under Rule
37(e), Fed.R.Civ.P.
Pre-operational Meeting: On the morning of August 29, 2012, ATF
conducted a preoperational meeting for one hour with 30 to 35 law
enforcement personnel, including Respondent ATF special agent Bernard
Hansen (“Hansen”) and other ATF agents regarding the operation to take
place later that morning. Hansen was present when ATF Agent Justin
Meyer (“Meyer”), the operational team leader that day, discussed all of the
contingencies including the location of where the suspects’ car was supposed
to be parked, that there was one ingress and egress to the lot, that the entire
-7-

lot was surrounded by a fence and police officers, and the use of a bucket
truck to block a fleeing vehicle. Hope White’s son Myron Pollard (“Pollard”)
was not part of this investigation and was unknown to Hansen and the ATF.
Take-Down: Damitrius Creighton (“Creighton”) called Pollard that
morning to “hang out” and knew that Pollard had nothing to do with the
fictitious drug sale/purchase. Creighton drove a car, in which Pollard was a
front-seat passenger, into ATF’s pre-determined parking spot, always with
the wheels turned, on an angle, and facing a wall but not parked directly
perpendicular to the wall. Hansen knew that the car could only travel in
reverse after it was parked. Hansen and nine other ATF agents had
protective gear and were armed with lethal semi-automatic M4 rifles. ATF
Special Agent David Hall (“Hall”) carried an LL-SL6 – a less than lethal
weapon in order to knock out windows to the car.
When Meyer gave the order, the U-Haul back door was opened, two
diversionary flash bangs went off, and Hansen jumped out of the U-Haul
shouting “police, police” and moved toward the vehicle where Pollard was
seated. The suspects’ car had not moved from the parked position while four
agents lined up to Hansen’s left and were stationary approximately 21 feet
away from the car in their predetermined location. Before the car began to
reverse, an ATF bucket truck had driven onto the lot and continued to drive
toward the car for the purpose of disabling it. Hansen heard the engine of
the suspects' vehicle begin to rev and he observed the white reverse lights on
-8-

the suspects' vehicle light up. When the car started to reverse, it never went
straight back, was always going on a curve, and never came toward Hansen.
As the car travelled in reverse toward the exit, Creighton looked over his
shoulder and saw the grille of the bucket truck but did not see any law
enforcement officers in his path. As the car was moving in reverse, the
agents remained stationary and lined up with their weapons pointed at the
driver’s side of the car. Of the four agents lined up shoulder to shoulder with
lethal weapons, Hansen was the only one to fire a lethal weapon.
As the car was reversing on a curve, Hall shot three less than lethal
baton rounds knocking out the rear driver’s side window and the driver’s
window.
The car had travelled two and one half car lengths (44 feet) on a curved
path when it collided with the bucket truck and was pushed forward. At
impact, Pollard went down with his knee on the front passenger’s floor, and
there was no blood spatter on the windshield. Creighton observed Pollard
pushing off of the dashboard trying to get up when Creighton heard three
gunshots back to back and then felt blood splatter on his face. One of those
gunshots struck Pollard in the head, knocked him all the way back into his
seat, and fatally wounded him. Once the bucket truck disabled the car, the
car was no longer a threat. Of the three bullets that Hansen fired, none
struck the driver, two struck the backseat passenger and one struck Pollard.
Hansen never yelled for other agents to get out of the way of the car because
-9-

he never observed them to be in harm’s way.
Hansen’s fatal shot was through the driver’s side of the car. Although
Hansen knew that a bullet from an M4 rifle can ricochet off of metal, asphalt,
a brick wall, and items in a car if shot into a car, he did not think about this
when he discharged bullets from his M4 rifle into the car. If Hansen would
have run in the opposite direction of the car, he would not have been hit and
nothing prevented him from moving out of the way. Had Hansen not shot and
stood where he was, like the other agents, he would not have been struck by
the car.
Audio/Video Recordings: Jason French (“French”), technical
surveillance specialist for ATF, set up four stationary digital video cameras
during the investigation to record the event – one on a pole that was video
only being recorded onto his computer’s hard drive (“server”) at his office
approximately 20 miles away (45 minutes by car); two wireless audio and
visual cameras under a tractor trailer being recorded to his computer’s hard
drive (“server”) in his van; and one audio and visual camera on his van
directly wired to the server in his van. It was at the request of ATF case
agent Chris Wiegner (“Wiegner”) and Meyer where to place the cameras.
French positioned the cameras in accordance with the plan that the suspects’
vehicle would be parked next to a van facing a wall. All of the video/audio
cameras were working properly when they were set up about 60 to 90
minutes before the incident, and the events were recorded to the server in the
-10-

van. After French burned the recording from the server to a DVD, he did not
compare the DVD with the original recording on the server, and destroyed
the original recording on the server that was in the van.
1.

Pole-cam (video only):

The recording of the pole-cam could be

stopped only at French’s office approximately 20 miles away. French
testified that he copied “the video file of the whole operation” off of the pole
cam that was recorded on the server at his office, and destroyed the original
recording on the server. French never compared the recording on the server
with the copy that was made to ensure that it was an exact copy without any
glitches or skips. The copy of the pole-cam video is 11 minutes and 44 seconds
in length. At the end of the pole-cam video at 11:42 a.m., French is seen on
the video at the scene even though it could only be turned off at his office 48
minutes away. The pole-cam recorded for another 48 minutes, yet French
edited out these 48 minutes when he returned to his office, turned off the
recording, and burned a DVD off of the server without these last 48 minutes.
More significantly, this video does not show the car traveling in
reverse nor the position of the agents when the shots were fired. The video
skips from the frame capturing the car in a parked position facing the wall to
the frame 4-1/2 seconds later when the bucket truck had already disabled the
car. The pole-cam was turned away from the scene twice for several minutes
at a time. French did not know who turned it the first time, but the second
time he stated that Special Agent Mike Hungria asked French to turn it off
-11-

“so it wasn’t covering anything.” If the pole-cam was turned away from the
scene or not copied in its entirety, it cannot be shown when the evidence
cones were placed on the ground next to the spent bullet shell casings, if the
casings were moved, if anyone searched for the bullets, or if anyone disturbed
the evidence at the scene.
2.

Audio/Video Camera #s 1 and 2: One of the two audio/video

cameras under the tractor trailer did not record the incident. French claims
that this one “froze” before the suspects’ vehicle even entered the lot and did
not record any of the events at issue in this case. The other audio/video
camera had a frozen video at the moment shots were fired while the audio
portion was uninterrupted. The original audio/visual recordings on the
server for these recordings were both deleted.
3.

Audio/Video Camera # 3: The video from the camera set up in

the surveillance platform ends at the moment the bucket truck collides with
the car and omits all audio/video including the final shots after the collision.
The original server was also erased. This was the only audio-video recording
that the jury requested to see in its deliberations before it returned a verdict
for Hansen.
French was to follow Meyer’s orders as to when to turn off the videos
that were recorded on the server. According to Meyer, he heard the flash
bangs, heard a vehicle, heard shots, heard the car crash with the bucket
truck, exited vehicle (surveillance platform), was “approaching the accident
-12-

scene,” and then “told Jason [French] … you can turn off the cameras.”
Meyer cannot explain why the copies of the videos only go to the time of the
crash or a second after the crash, stop at the moment the car and truck
collide, and omit any video or audio after that moment.
Chain of Custody: After French made copies of the videos, he gave
them to ATF agent Gettler who gave them to ATF agent Wiegner who put
them into a temporary locker on August 29, 2012 until they went into an
evidence locker on September 18, 2012. On September 18, 2012, Gettler gave
the DVD copies to evidence custodian Mark Winn. There is no record of the
chain of custody of these DVD video copies for 20 days when they were finally
placed into the permanent evidence locker, there is no explanation why the
date is smudged on the evidence tag for the videos, and no one can decipher
the rest of the writing on the evidence tag.
Spoliation of evidence: White filed a motion for sanctions for spoliation
of evidence under Rule 37(e), Fed.R.Civ.P. and common law spoliation of
evidence principles with a memorandum in support of this motion because
none of the four digital video cameras set up by the ATF recorded the actual
shooting – one camera “malfunctioned,” one camera had frozen video frames
while shots were fired, one camera had over four (4) seconds of footage not
recorded, and one camera was obstructed by the ATF truck and cut off the
audio at the time the car was disabled omitting the final gunshots. Although
the ATF made copies from the original servers, the copies were not of the
-13-

entire recordings on the servers and ATF then erased the master servers.
The district court filed its Memorandum and Order ordering the USA and
Hansen to inspect and produce any video files recovered from the servers and
to report back to the court with their results. The court also denied without
prejudice White’s motion for sanctions. In response to this, the USA and
Hansen had three (3) employees of the ATF, not independent examiners,
inspect the servers and file their memorandum stating that no files were
recovered from the August 29, 2012 operation. White then filed a motion to
reconsider her motion for sanctions. The court denied White’s motion for
sanctions in its Memorandum and Order but allowed White to “argue an
inference that the missing parts of the videos would be detrimental to the
defendants at trial.” The USA and Hansen’s motion in limine # 5 requested
that White not be allowed to argue an adverse inference regarding spoliation
despite the court’s allowing it in a previous order. The district court then
reversed its previous order and stated: “The Court therefore withdraws its
earlier statement that “plaintiff [White] will be permitted to argue an
inference – as opposed to a presumption – that the missing parts of the video
would have been detrimental to defendants [USA and Hansen].” The district
court granted the USA and Hansen’s motion in limine #5 and disallowed
White to argue an adverse inference to the jury on the Bivens claim
regarding the erased original servers and the missing video segments on the
copies.
-14-

Insurance Question: White filed her request to use the “insurance
question” in voir dire and the district court denied White’s request.
Prejudicial error: During the opening statement, Hansen’s counsel
made several statements that were objected to and overruled including
arguing the “Golden Rule” and stated that a confidential informant told an
ATF agent that the undercover agent would be killed. Over White’s
objections at trial, various ATF agents were allowed to testify about unknown
associates showing up, drug stash houses, threats of killing the undercover
agent, and the dangerousness of the suspects despite the fact that White’s
son, Myron Pollard, was not a suspect and Hansen never feared for his safety
because of any gun involvement.
REASONS FOR GRANTING THE PETITION
A.

The decision below is wrong.

1.

The decision conflicts with the FTCA’s text and this Court’s

decisions.
The court of appeals’ interpretation of the judgment bar violates the
text of the FTCA. When interpreted properly to give meaning to all of the
statutory text, the FTCA instructs that Section 2676 only applies when three
independent requirements are met: (1) there is a separate lawsuit; (2)
brought after a court with FTCA jurisdiction has entered a final judgment;
(3) addressing the merits of the claims. The failure of any one of those
requirements precludes the judgment bar’s application. The first two
-15-

requirements fail here; therefore, barring White’s Bivens claim, vacating the
judgment on the Bivens claim, and allowing the court below not to address
the issues raised in the Bivens claim are contrary to the FTCA’s language,
this Court’s previous holdings, the holdings of another circuit court, and the
holdings within the Eighth Circuit itself.
The judgment bar does not apply to an FTCA subsequent judgment in
the same lawsuit. The text of Section 2676 (app. F, infra, 45a) and the
Court’s decisions in Simmons v. Himmelreich, 136 S. Ct. 1843 (2016) and Will
v. Hallock, 546 U.S. 345 (2006), show that the judgment bar does not operate
against claims brought together in the same lawsuit. Simmons at 1849. If a
plaintiff brings claims together in a single lawsuit, there is no chance of
duplicative litigation. Will at 354.
First, the court below states that the use of Section 2676 phrase “by
reason of the same subject matter” (App. A, infra, 8a) can include a Bivens
claim. Even if true, that does not mean that the judgment bar can reach a
Bivens claim brought together with FTCA claims in the same lawsuit.
Second, the court treats Section 2676 as an election of remedies. That
argument holds no support in the FTCA or Congress’ unequivocal intention
that FTCA claims and Bivens claims complement one another. Carlson v.
Green, 446 U.S. 14, 19-20, 100 S.Ct. 1468, 64 L.Ed.2d 15 (1980).
Although there are strong arguments that the judgment bar only applies to
claims based on the same theory of tort liability and not constitutional
-16-

claims, that question has no relevance in lawsuits where a plaintiff raises
FTCA and Bivens claims together. See generally James E. Pfander & Neil
Aggarwal, Bivens, the Judgment Bar, and the Perils of Dynamic Textualism,
8 U. St. Thomas L.J. 417 (2011).
Under the holding of the court below, if a plaintiff brings Bivens and
multiple FTCA tort claims in the same lawsuit, the failure of any single tort
claim would instantly bar all Bivens claims. Under this theory, if a court were
to hold that a plaintiff could sustain a claim of battery, but not intentional
infliction of emotional distress, and grant a motion to dismiss on that single
claim, Section 2676 would bar the plaintiff from proceeding concurrently on a
Bivens claim. This Court has already rejected that outcome, Simmons, 136 S.
Ct. at 1850, and it contradicts principles of res judicata. The election-ofremedies theory in the court below promotes the “strange result” Simmons
cautioned against and violates res judicata principles. The “strange result”
rejected in Simmons, 136 S. Ct. at 1850, is “the inevitable result of the
judgment bar,” which operates as an election of remedies. Ibid.
There is nothing in the FTCA or its legislative history to show that
Congress meant to pre-empt a Bivens remedy or to create an equally effective
remedy for constitutional violations. Rather, in the absence of a contrary
expression from Congress, the FTCA's provision creating a cause of action
against the United States for intentional torts committed by federal law
-17-

enforcement officers, contemplates that victims of the kind of intentional
wrongdoing alleged in the complaint in this case shall have an action under
the FTCA against the United States as well as a Bivens action against the
individual officials alleged to have infringed their constitutional rights.
Carlson, at 18-20.
The following factors also support the conclusion that Congress did not
intend to limit White to an FTCA action: (i) the Bivens remedy, being
recoverable against individuals, is a more effective deterrent than the FTCA
remedy against the United States; (ii) punitive damages may be awarded in
a Bivens suit, but are statutorily prohibited in an FTCA suit; (iii) White
cannot opt for a jury trial in an FTCA action as she may in a Bivens suit; and
(iv) an action under the FTCA exists only if the State in which the alleged
misconduct occurred would permit a cause of action for that misconduct to go
forward. Carlson, at 20-23. The holding in the court below conflicts with the
Court’s holding in Carlson that it is “crystal clear that Congress views FTCA
and Bivens as parallel, complementary causes of action.” Carlson, at 19–20.
Although the claims are predicated on the same conduct of Hansen,
they do not regard the same subject matter – each claim was for different
damages, different causes of action, and by White in different capacities. The
remedy provided by the FTCA is generally “exclusive of any other civil action
or proceeding for money damages by reason of the same subject matter
-18-

against the [federal] employee whose act or omission gave rise to the claim.”
28 U.S.C. 2679(b)(1). That limitation, however, “does not extend or apply to a
civil action against an employee of the Government … which is brought for a
violation of the Constitution of the United States.” 28 U.S.C. 2679(b)(2). The
opinion of the court below has a contrary interpretation of the judgment bar
and disregards the text of Section 2676, and the balance identified by
Simmons and Will. Instead, the court below provides a theory of the
judgment bar as an election of remedies. That theory would, in the words of
Simmons, “encourage litigants to file suit against individual employees before
suing the United States to avoid being foreclosed from recovery altogether,”
136 S. Ct. at 1850, a result at odds with the FTCA and this Court’s decisions.
See Ibid.
In Will v. Hallock, 546 U.S. 345, 353-354 (2006), this Court
unanimously explained that the judgment bar is analogous to “the defense of
claim preclusion, or res judicata,” and “[a]lthough the statutory judgment bar
is arguably broader than traditional res judicata, it functions in much the
same way, with both rules depending on a prior judgment as a condition
precedent and neither rejecting a policy that a defendant should be scot free
of liability.” Will, 546 U.S. at 354. Both rules, Will explained, are concerned
with saving trouble for the government and it employees in “avoiding
duplicative litigation, ‘multiple suits on identical entitlements or obligations
between the same parties.’ ” Ibid. For that reason, “there will be no
-19-

possibility of a judgment bar … so long as a Bivens action against officials
and a Tort Claims Act [action] against the government are pending
simultaneously.” Ibid.
Congress wanted to prevent unsuccessful FTCA plaintiffs from
“turn[ing] around” and “su[ing]” the employee whose alleged misconduct was
at issue, thereby initiating another disruptive round of litigation. United
States v. Gilman, 347 U.S. 507, 512 n.2 (1954) (quoting 1942 Hearing 9).
The Court unanimously confirmed those conclusions in Simmons, 136
S. Ct. at 1849 (explaining that the judgment bar does not cut off a plaintiff ’s
“first suit” or “a fair chance to recover damages”). Simmons reinforced Section
2676’s requirements: a separate lawsuit, a final judgment by a court with
FTCA jurisdiction, and a merits decision.
The judgment bar establishes that a plaintiff who “receives a judgment
(favorable or not) in an FTCA suit … generally cannot proceed with a suit
against an individual employee based on the same underlying facts.”
[emphasis added]. Simmons at 1847. This does not mean that an FTCA
judgment retroactively voids a prior Bivens claim judgment. This language
applies to the proposition that a single plaintiff may generally not sue for the
same damages, under the same theory of recovery under respondeat superior
liability against both the employee and the United States in a separate suit.
This is a general rule and not an absolute one. Furthermore, the language
states the order of the judgments – first, there is a judgment for the FTCA
-20-

suit, and then the same plaintiff “cannot proceed with a suit against an
individual.…” In the case at bar, White was suing in two separate capacities
– one individually, and one as personal representative of the Estate of her
son Myron Pollard. Furthermore, the jury’s verdict on the Bivens claim was
handed down first on July 27, 2018 with the partial judgment being entered
on August 21, 2018 (App. B, infra, 11a); and the judgment on the FTCA claim
being entered on March 29, 2019 (App. D, infra, 43a). This was the opposite
order of the language that is specified in Simmons. The statute thereby
“prevents unnecessarily duplicative litigation” after an FTCA claimant has
had “a fair chance to recover damages for his” alleged injury. Id. at 1849.
Simmons held that “the judgment bar provision prevents unnecessarily
duplicative litigation”; that Congress adopted Section 2676 to codify nonmutual res judicata; and that the judgment bar does not apply to claims in
the same lawsuit. Simmons, 136 S. Ct. at 1849 & n.5 (“The judgment bar
provision applies where a plaintiff first sues the United States and then sues
an employee.”).
In Brownback v. King, 140 S. Ct 2563 (2020), (a case to be argued
before this Court on November 9, 2020), James King resisted arrest after
being stopped by FBI Special Agent Douglas Brownback and Grand Rapids
Police Department Detective Todd Allen. King was tried and acquitted of the
charges of assault with intent to do great bodily harm, aggravated assault of
-21-

a police officer, and resisting arrest. He then sued the United States under
the FTCA and Bivens. The U.S. district court for the Western District of
Michigan held Brownback and Allen had not violated King’s constitutional
rights under Bivens. The district court also decided against King’s FTCA
claims. On appeal, the U.S. Circuit Court of Appeals for the Sixth Circuit
reversed the district court’s ruling.
The decision in Brownback may have important implications for
parties bringing simultaneous FTCA and Bivens claims. Although the
jurisdictional facts, the number of plaintiffs, and the different causes of
action in Brownback differ from the case at bar, this Court may clarify
whether a merits-based FTCA judgment allows or bars Bivens claims based
on the same underlying facts, even when the claims are brought in the same
action. Although the case at bar involves different claims and plaintiff’s
serving in different capacities, this Court may nevertheless address these
issues as well.
The court below cites two Supreme Court cases, and five United States
Courts of Appeals cases to support the proposition that the FTCA judgment
bar precludes the Bivens claim. The circuit court was correct in citing
“Carlson v. Green, 446 U.S. 14, 19-20 (1980) (noting that it is “crystal clear
that Congress views FTCA and Bivens as parallel, complementary causes of
action”). (App. A, infra, 8a). One may exist with the other.
Simmons v. Himmelreich, 136 S.Ct. 1843, 1847 (2016) cited by the
-22-

court below is not on point to support its opinion. Simmons began with two
separate suits filed by Himmelreich -- one for an FTCA claim that fell under
the “exceptions” section of the FTCA and one under Bivens. While the
government’s motion to dismiss the FTCA claim was pending, Himmelreich
filed a separate lawsuit under Bivens. Himmelreich first filed an FTCA suit,
was the only plaintiff, and was suing for the same damages against both the
government (FTCA claim) and its employee (Bivens claim). Ultimately, this
Court ruled that Himmelreich had a right to pursue his Bivens claim after
the district court dismissed the FTCA claim.
Had the personal representative for the estate of Myron Pollard
prevailed in the Bivens claim, the proceeds from the judgment for a violation
of Pollard’s constitutional rights would have gone into an estate account to be
distributed to Myron Pollard’s heirs at law in accordance with the probate
laws of the State of Missouri. White, in her individual capacity, was suing for
her loss of consortium, emotional distress, funeral bills, and burial expenses
on the FTCA claim. White is suing under separate theories of recovery for
these different damages – one for negligence and wrongful (tortious) conduct
in the FTCA claim and one for a violation of a Constitutional right in the
Bivens action. White brought both of these suits together in one proceeding,
rather than in separate lawsuits.
2. The decision conflicts with decisions of other federal courts of appeals.
a.
Cases in other circuits are in complete opposition to the holding
in the court below.
-23-

The parties agree that the judgment bar’s purpose is to prevent
unnecessarily duplicative litigation. See, e.g., Gasho v. United States, 39 F.3d
1420, 1438 (9th Cir. 1994) (“Our interpretation of § 2676 [barring a
subsequent Bivens action] serves the interests of judicial economy. Plaintiffs
contemplating both a Bivens claim and an FTCA claim will be encouraged to
pursue their claims concurrently in the same action, instead of in separate
actions.”); see also Hoosier Bancorp of Ind., Inc. v. Rasmussen, 90 F.3d 180,
184–185 (7th Cir. 1996) (citing judicial economy). The court below contends
that the judgment bar precludes simultaneous claims that involve no
duplicative litigation at all.
The Ninth Circuit has held that a merits-based FTCA judgment
for the government bars a Bivens claim, but not if the two claims are brought
in the same action. See Fazaga v. FBI, 916 F.3d 1202 (9th Cir. 2019). The
Ninth Circuit held in Fazaga at 1250 that:
“The judgment bar provision precludes claims against individual
defendants in two circumstances: (1) where a plaintiff brings an FTCA
claim against the government and non-FTCA claims against individual
defendants in the same action and obtains a judgment against the
government, see Kreines v. United States, 959 F.2d 834, 838 (9th Cir.
1992); and (2) where the plaintiff brings an FTCA claim against the
government, judgment is entered in favor of either party, and the
plaintiff then brings a subsequent non-FTCA action against individual
defendants, see Gasho v. United States, 39 F.3d 1420, 1437-38 (9th Cir.
1994); Ting v. United States, 927 F.2d 1504, 1513 n.10 (9th Cir. 1991).
The purposes of this judgment bar are ‘to prevent dual
recoveries,’ Kreines, 959 F.2d at 838, to ‘serve[ ] the interests of judicial
economy,’ and to ‘foster more efficient settlement of claims,’ by
‘encourag[ing plaintiffs] to pursue their claims concurrently in the
same action, instead of in separate actions,’ Gasho, 39 F.3d at 1438.
-24-

Neither of those two circumstances, nor their attendant risks, is
present here. Plaintiffs brought their FTCA claim, necessarily,
against the United States, and their non-FTCA claims against the
Agent Defendants, in the same action. They have not obtained a
judgment against the government. Kreines held that ‘an FTCA
judgment in favor of the government did not bar the Bivens claim
[against individual employees] when the judgments are
`contemporaneous' and part of the same action.’ Gasho, 39 F.3d at
1437 (quoting Kreines, 959 F.2d at 838).”
The Ninth Circuit held in Fazaga v. FBI, 916 F.3d 1202 (2019),
amended opinion at 965 F.3d 1015 (9th Cir. 2020), that the judgment bar does
not apply where a plaintiff brings FTCA claims and Bivens claims in the
same action (as opposed to bringing FTCA claims first and then later
attempting separately to bring Bivens claims concerning the same alleged
injuries), unless the plaintiff obtains a judgment in his or her favor against
the government. Id. at 1250 (citing Kreines v. United States, 959 F.2d 834,
838 (9th Cir. 1992)).
In Kreines v. United States, 959 F.2d 834 (9th Cir. 1992) the Ninth
Circuit held that when the government prevails on a plaintiff's FTCA claim,
Section 2676 did not bar the plaintiff from recovering on a Bivens claim
brought within the same suit. The court viewed the primary purpose of
Section 2676 was to prevent dual recoveries arising from subsequent
litigation. The court concluded that Section 2676 should not bar a
contemporaneous Bivens recovery when the government prevailed on the
plaintiff's FTCA claim. “Congress' primary concern in enacting the bar was
-25-

to prevent multiple lawsuits on the same facts. See Hearings Before the House
Committee on the Judiciary on H.R. 5373 and H.R. 6463, 77th Cong., 2d Sess.
9 (1942) (statement of Francis Shea, Assistant Attorney General). That
concern is absent when suit is brought contemporaneously for FTCA and
other relief.” Kreines at 838.
In Gasho v. United States, 39 F.3d 1420, 1437 (9th Cir. 1994),
certiorari denied, ___ U.S. ___, 115 S.Ct 2585, 132 L.Ed.2d 831, the court
found that the legislative history of the section indicated that Congress was
concerned not only with double recoveries by plaintiffs, but with the
prevention of multiple lawsuits as well. The court stated: "Plaintiffs
contemplating both a Bivens claim and an FTCA claim will be encouraged to
pursue their claims concurrently in the same action, instead of in separate
actions." Gasho at 1438. This is exactly how White proceeded with her claims
– concurrently in the same action.
The United States and Hansen argued throughout the litigation,
including in the motions in limine, that the FTCA and the Bivens actions are
two separate claims and that White’s FTCA individual claims may not be
mentioned in the Bivens case and White’s claims as personal representative
for the Estate of Myron Pollard in the Bivens action are not relevant to the
FTCA claim. Assuming arguendo that the FTCA judgment bars the
judgment in the Bivens action, then had White been afforded a fair trial on
-26-

the Bivens claim without spoliation of evidence, without improper statements
by the United States and Hansen’s counsel, without improper prejudicial
evidence being allowed, and with the “insurance question” in voir dire being
allowed, then a favorable verdict would have been returned in the Bivens
case and the FTCA claim could have been dismissed. This would have been
allowed as it was in Wagner v. Jones, 2:13-cv-00771-CG/WPL, p. 12 (Dist Ct.
NM, 2014) when the court stated in accordance with Semtek Int'l Inc. v.
Lockheed Martin Corp., 531 U.S. 497 (2001), the district court “cannot find
that the dismissal of Plaintiff’s FTCA claim constituted a judgment on the
merits with any claim-preclusive effect over other actions arising from the
same transaction. For all of the foregoing reasons, the Court holds that the §
2676 judgment bar does not preclude Plaintiff’s Bivens claim in this suit.”
In Rodriguez v. Handy, 873 F.2d 814 (5th Cir. 1989) the 5th Circuit
Court of Appeals stated: “ § 2676 is applicable only after a plaintiff obtains a
judgment against the United States. ” [emphasis added]. Rodriguez v.
Handy, 873 F.2d 814, 816 n.1 (5th Cir. 1989). Rodriguez held that the FTCA
claim bar was to prevent from double recoveries of a judgment first against
the government, and then against the individual. White, individually, did
not obtain a judgment against the United States nor was the FTCA claim
decided before the Bivens claim.
b. The cases cited by the court below may easily be distinguished from
and do not apply to the case at bar.
-27-

The court below cited five cases from various courts of appeals to
support the proposition that the FTCA judgment bars a Bivens claim.
In Unus v. Kane, 565 F.3d 103, 122 (4th Cir. 2009), the plaintiffs were
both married and sued in their individual capacities for the same damages.
In the case before this Court, White cannot and did not sue in her individual
capacity under Bivens, and did not sue in her representative capacity under
the FTCA.
In Manning v. United States, 546 F.3d 430, 434 (7th Cir. 2008) and
Harris v. United States, 422 F.3d 322, 337 (6th Cir. 2005), the plaintiff was an
individual suing in his individual capacity for the same cause of action in
both the FTCA and Bivens claims. In those cases, it would be possible to
have multiple judgments for the same damages. In the case before this
Court, the damages were totally separate for each claim and White was suing
in two separate capacities. To get around Carlson and Congress’ intent and
convert the FTCA and Bivens from parallel remedies to exclusive remedies,
the lower court employed an election-of-remedies theory crafted by the
Seventh Circuit in Manning. In Manning, the Seventh Circuit wrongly
approved the application of Section 2676 to invalidate a jury’s verdict under
Bivens based on a court’s later FTCA judgment in the same lawsuit.
Manning, at 431. The court’s argument began with the faulty premise that
“Congress did not import common law res judicata into § 2676.” Id. at 435.
-28-

From there, Manning cited selective language from Section 2676 and
concluded that the phrase “a complete bar to any action” “must be read to
include claims brought within the same action.” Id. at 433–434.
In Arevalo v. Woods, 811 F.2d 487(9th Cir. 1987) the case involved a
double recovery against both the government and the government’s employee.
“In 1974 Congress amended § 2680(h) of the FTCA to create a cause of action
against the United States for certain intentional torts committed by federal
investigative and law enforcement officers. Under this section, victims of the
kind of intentional wrongdoing alleged by Arevalo have an action against the
United States under the FTCA as well as a Bivens action against the
individual federal investigative or law enforcement officers alleged to have
infringed constitutional rights. Carlson v. Green,446 U.S. 14, 19-20, 100 S.Ct.
1468, 1471-72, 64 L.Ed.2d 15 (1980).” Arevalo v. Woods, 811 F.2d 487, 489
n.2 (9th Cir. 1987).
In Serra v. Pichardo, 786 F.2d 237 (6th Cir.), cert. denied, ___ U.S. ___,
107 S.Ct. 103, 93 L.Ed.2d 53 (1986) the Sixth Circuit stated the issue was
"whether a plaintiff's actions against individual defendants on Bivens claims
are barred after he obtains a judgment against the government on a FTCA
claim, when each claim arises out of the same acts and events. [emphasis
added] Id. at 239.” Arevalo v. Woods, 811 F.2d 487, 490 (9th Cir. 1987).
Again, in the case at bar, the judgment for the Bivens claim came first.
In Estate of Trentadue ex rel. Aguilar v. United States, 397 F. 3d 840,
-29-

859 (10th Cir. 2005) the court acknowledged “the language of the statute does
not speak to situations where FTCA and non-FTCA claims are tried together
in the same action, see Kreines v. United States, 959 F.2d 834, 838 (9th
Cir.1992),….” It is interesting to note that the lower court’s opinion below
never addressed the Kreines case.
A handful of circuits have concluded that Section 2676 bars claims in
the same lawsuit; but, of the decisions the circuit court cites, one is Manning,
and the rest reach the same incorrect conclusion because they rely on
Manning, ignore the language of Section 2676, or both. Unus v. Kane, 565
F.3d 103, 121–122 (4th Cir. 2009) (citing Manning); Estate of Trentadue v.
United States, 397 F.3d 840, 858–859 (10th Cir. 2005) (relying on the phrase
“any action”); Harris v. United States, 422 F.3d 322, 334 (6th Cir. 2005)
(surveying caselaw without analysis); see also Rodriguez v. Handy, 873 F.2d
814, 816 (5th Cir. 1989) (relying on the “broad sweeping phrases” of Section
2676); but see Fazaga v. FBI, 965 F.3d 1015, 1064 (9th Cir. 2020). None of the
cases cited by the court below grapple with the common-law language of
Section 2676 or the gamesmanship their holdings invite.
All of the cases cited in Section “IV. Bivens Claim” in the Opinion
(App., infra, 7a – 9a) are either distinguishable or inapplicable to the case at
bar. The following facts distinguish the case before this Court and the cases
cited in the Opinion:
-30-

(1)

Although Hope Angelic White is one person, she served in two

separate and distinct capacities. She served: (1) in her individual capacity for
her individual claims against the government under the FTCA, and (2) as the
personal representative for the estate of Myron Pollard in the Bivens claim.
The court below treated her as one plaintiff serving in one capacity, with one
set of claims.
(2)

The FTCA and Bivens claims and damages were separate and

distinct from one another. The FTCA claim for Hope White individually was
for her loss of consortium, emotional distress, funeral expenses, and burial
bills under Missouri law. The Bivens claim was for Myron Pollard’s estate (in
which White was the personal representative) for the wrongful death of
Myron Pollard for a violation of a provision of the United States Constitution.
(3)

The FTCA and Bivens claims were tried at the same time – one

did not follow the other.
(4)

The Bivens judgment was entered first on August 21, 2018 and

the FTCA judgment was entered on March 29, 2019.
As shown by Will, Simmons, Carlson, and the text of Section 2676, the
judgment bar does not apply to claims in the same lawsuit.
3.

The decision conflicts with decisions within its own circuit.

Previous decisions of the Eighth Circuit Court of Appeals on this issue
hold that an FTCA claim does not bar a Bivens claim. In Arcoren v. Farmers
-31-

Home Admin., 770 F.2d 137, 140 n. 6 (8th Cir. 1985), the court stated “[t]he
Supreme Court has held specifically that the FTCA does not preclude a
Bivens remedy. See Carlson v. Green, 446 U.S. at 19-20, 100 S.Ct. at 147172.” “Bivens established that the victims of a constitutional violation by a
federal agent have a right to recover damages against the official in federal
court despite the absence of any statute conferring such a right. Recently the
Supreme Court held that a Bivens action is available even though plaintiff's
allegations could also support a suit filed under the FTCA. Carlson v. Green,
446 U.S. 14, 100 S.Ct. 1468, 64 L.Ed.2d 15 (1980).” Loge v. U.S., 662 F.2d
1268, 1275, n.8 (8th Cir. 1981).

B.

The Question Presented Warrants This Court’s Review

As explained above, the court of appeals’ decision in this case conflicts
directly with Congress’ intent, the plain meaning of the FTCA, this Court’s
decisions, other circuit courts’ decisions, and decisions within its own circuit.
Certiorari is warranted to resolve the division and to clarify the correct
application of the judgment bar under the FTCA.

CONCLUSION
The petition for a writ of certiorari should be granted.

-32-

DATED this 26th day of October, 2020.
Respectfully submitted,
/s/ Howard A. Shalowitz
Howard A. Shalowitz
Attorney for Petitioner
P.O. Box 410404
St. Louis, MO 63141-0404
Tel: (314) 277-9977
Fax: (314) 392-9912
E-Mail: howard@shalowitz.org

-33-

